U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Trump, et al. v. New York, et al., No. 20-366
Dear Mr. Harris:
Pursuant to Rule 37.3, the appellants hereby provide their blanket consent to the filing of
amicus briefs in support of either party or neither party in the above-captioned case.
Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0366
TRUMP, DONALD J., PRESIDENT OF THE US
STATE OF NEW YORK, ET AL.

DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET, NW
WASHINGTON, DC 20005
212-549-2611
DCOLE@ACLU.ORG
JOHN A. FREEDMAN
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE., NW
WASHINGTON, DC 20001
JULIA A. GOMEZ
ACLU FOUNDATION OF SOUTHERN
CALIFORNIA
1313 WEST 8TH STREET
LOS ANGELES, CA 90017
PERRY GROSSMAN
NY CIVIL LIBERTIES UNION FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
DALE E. HO
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
NEW YORK, NY 10004
212-549-2693
DALE.HO@ACLU.ORG

LAWRENCE J. JOSEPH
IMMIGRATION REFORM LAW INSTITUTE
1250 CONNECTICUT AVE., NW
SUITE 700-1A
WASHINGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
JEREMIAH LEE MORGAN
WILIAM J. OLSON, PC
370 MAPLE AVENUE WEST
SUITE 4
VIENNA, VA 22180-5615
703-356-5070
JMORGAN@LAWAND FREEDOM.COM
ANDRE I. SEGUAR
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
OF TEXAS
P.O. BOX 8306
HOUSTON, TX 77288
BARBARA D. UNDERWOOD
NEW YORK SOLICITOR GENERAL
28 LIBERTY STREET, 23RFD FLOOR
NEW YORK, NY 10005
212-416-6197
BARBARA.UNDERWOOD@AG.NY.GOV

